         OFFICE OF INSPECTOR GENERAL



                                   Catalyst for Improving the Environment


Audit Report




       State of Oregon Safe Drinking Water
       Revolving Loan Fund
       Financial Statements with
       Independent Auditor’s Report, June 30, 2004




       Report No. 2005-1-00157



       September 12, 2005

Abbreviations

CFR         Code of Federal Regulations
EPA         United States Environmental Protection Agency
OECDD       Oregon Economic and Community Development Department
                         U.S. Environmental Protection Agency                                    2005-1-00157

                                                                                            September 12, 2005

                         Office of Inspector General


                         At a Glance

                                                                   Catalyst for Improving the Environment

Why We Did This Review              State of Oregon Safe Drinking Water Revolving
                                    Loan Fund Fiscal 2004 Financial Statements
We performed this audit to
determine:                           Oregon Safe Drinking Water Revolving Loan Fund
                                     Receives Qualified Opinion
• If the Oregon Safe Drinking
  Water Revolving Loan              We issued a qualified opinion on the financial statements of Oregon’s
  Fund’s financial statements       Safe Drinking Water Revolving Loan Fund for the fiscal year ended June
  were fairly presented in all      30, 2004. We also qualified our opinion on compliance with applicable
  material respects;                laws and regulations, and noted a material weakness in internal controls,
• To what extent the Oregon         discussed in the following sections.
  Safe Drinking Water
  Revolving Loan Fund’s              Internal Control Weakness Noted
  internal controls over
  financial reporting could be      The State accounting system does not document and support the assets,
  relied upon; and                  liabilities, net assets, and revenues and expenditures of the Set-Aside
• Whether the Oregon Safe           fund in accordance with Generally Accepted Accounting Principles.
  Drinking Water Revolving          Further, the information provided during the audit does not agree with
  Loan Fund complied with           the information provided in the financial statements.
  applicable laws and
  regulations.                       Noncompliance with Laws and Regulations Noted

Background                          We noted the following noncompliance with laws and regulations:

The requirement for audited         •	 The State of Oregon accounting system does not track revenues and
financial statements was enacted       expenditures for the set-aside programs on a fiscal year basis. The
to help ensure that State              Safe Drinking Water Act requires that States account for all activities
Revolving Fund programs had            in accordance with Generally Accepted Accounting Principles.
management practices, systems,
and controls in place to provide    •	 The program performed technical and managerial evaluations that
reliable information for               identified deficiencies that were not made conditions of the loan
managing the Federally funded          agreement as required by regulation. The program provided a list of
program.                               corrective actions that should be sufficient to correct the problem.

For further information,
contact our Office of
Congressional and Public Liaison
at (202) 566-2391.

To view the full report, click on
the following link:

www.epa.gov/oig/reports/2005/
20050912-2005-1-00157.pdf
                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C.


                                                                                OFFICE OF 

                                                                           INSPECTOR GENERAL





                                    September 12, 2005

MEMORANDUM

SUBJECT:        Auditor’s Report for the State of Oregon Safe Drinking Water
                Revolving Loan Fund as of June 30, 2004
                Report No. 2005-1-00157

                Leah L. Nikaidoh, Acting Director for
FROM:           Michael A. Rickey
                Director, Assistance Agreement Audits

TO:             Michael Bogert
                Regional Administrator
                EPA Region 10


Attached is a copy of the subject audit we sent to the State of Oregon. The audit contains
reports on the financial statements, internal controls, and compliance requirements applicable
to the Drinking Water State Revolving Fund Program in Oregon for the year ended June 30,
2004.

We have issued a qualified opinion on the financial statements and a qualified opinion on the
compliance requirements, as discussed in our report on compliance. In our report on internal
controls, we noted an issue involving the internal control structure and its operations that we
considered to be a material weakness.

In accordance with EPA Directive 2750, the Action Official is required to take action on the
findings and recommendations in this report within 150 days.

The Office of Inspector General has no objection to the release of this report to any member
of the public upon request. The report contains no confidential business or proprietary
information.

If you have any questions or concerns, please contact Mr. William Dayton at (916) 498-6590
or Mr. Darren Schorer at (206) 553-6288.

Attachment
                                    Table of Contents

At a Glance


Independent Auditor’s Report on Oregon Safe

Drinking Water Revolving Loan Fund Program

Fiscal 2004 Financial Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   1


      Statement of Net Assets . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          3

      Statement of Revenues, Expenses, and Changes in Net Assets . . . . . . . . . . . . . . . . . .                                     4

      Statement of Cash Flows . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            5

      Notes to Financial Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              7



Independent Auditor’s Report on the Internal Control Structure Based on an
Audit of the Financial Statements Performed in Accordance with
Government Auditing Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 


      Internal Control Finding and Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 



Independent Auditor's Report on Compliance with the Requirements

Applicable to the Environmental Protection Agency's State Revolving

Fund Program in Accordance with Government Auditing Standards . . . . . . . . . . . . . . 15 


      Compliance Findings and Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 



Supplemental Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 


      State of Oregon Drinking Water State Revolving Fund

      Schedule of Set-Aside Expenses (Unaudited)

      Year Ended June 30, 2004 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 



Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 

                          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                         WASHINGTON, D.C.

                                                                                       OFFICE OF
                                                                                  INSPECTOR GENERAL




                          Independent Auditor’s Report on
              Oregon Safe Drinking Water Revolving Loan Fund Program
                          Fiscal 2004 Financial Statements


We have audited the accompanying Statement of Net Assets of the Oregon Safe Drinking Water
Revolving Loan Fund Program (the Program) as of June 30, 2004, and the related Statements of
Revenues, Expenses, and Changes in Net Assets, and Statement of Cash Flows for the year then
ended. These financial statements are the responsibility of the Program management. Our
responsibility is to express an opinion on these financial statements based on our audit.

We conducted our audit in accordance with generally accepted auditing standards in the United
States of America and Government Auditing Standards issued by the Comptroller General of the
United States. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures in the
financial statements. An audit also includes assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audit provides a reasonable basis for our opinion.

The Program was unable to document and support the assets, liabilities, net assets, and revenues
and expenditures of the Set-Aside Funds in accordance with Generally Accepted Accounting
Principles. The State of Oregon accounting system does not track revenues and expenditures on a
fiscal year basis for grant type programs, and we were not able to apply other auditing procedures
to satisfy ourselves as to opening balances and current year activity. Accordingly, the scope of
our work was not sufficient to enable us to express, and we do not express, an opinion on the
Set-Aside Fund or its results of operations for the year ended June 30, 2004.

In our opinion, except for the effect of the issues discussed in the preceding paragraph, the
financial statements referred to in the first paragraph present fairly, in all material respects, the
financial position of the Oregon Safe Drinking Water Revolving Loan Fund and the results of its
operation and its cash flows for the year then ended in conformity with accounting principles
generally accepted in the United States of America.

As discussed in Note 1, the financial statements referred to above are intended to present the
financial position and results of operations of the Oregon Safe Drinking Water Revolving Loan
Fund, a component fund of the State of Oregon. These statements are not intended to present the
financial position or results of operations for the State of Oregon, the Oregon Department of
Human Services, or the Oregon of Economic and Community Development Department, in

                                                  1
conformity with accounting principles generally accepted in the United States, of which the Safe
Drinking Water Revolving Loan Fund is a part.

In accordance with Government Auditing Standards, we have also issued a report, dated February
9, 2005, on our consideration of the Oregon Safe Drinking Water Revolving Loan Fund’s internal
control structure and a report dated February 9, 2005, on its compliance with laws and
regulations. Those reports are integral parts of an audit prepared in accordance with auditing
standards generally accepted in the United States of America and should be read in conjunction
with the report in considering the results of our audit.



Office of Inspector General
Environmental Protection Agency

February 9, 2005




                                                2
                                     STATE OF OREGON
                           Safe Drinking Water Revolving Loan Fund
                                     Statement of Net Assets
                                          June 30, 2004

                                                           Set Asides
  Assets                                      Loans         (Unaudited)      Total
Current assets:
   Cash and cash equivalents             $ 12,993,330       $        5    $ 12,993,335
Receivables:
   Current maturities of loans               1,676,318                       1,676,318
   Interest receivable                         805,057                         805,057
   Accounts receivable-Federal                                  333,370        333,370
   Due from other agencies                      56,660           62,938        119,598
Total current assets                        15,531,365          396,313     15,927,678

Noncurrent assets
   Loans receivable, net                    50,016,891                      50,016,891

Total assets                                65,548,256          396,313     65,944,569

  Liabilities and Net Assets
Liabilities:
Current liabilities:
   Accrued liabilities/
     accounts payable                             25,694        214,282       239,976
Total current liabilities                         25,694        214,282       239,976

Noncurrent liabilities
   Due to other funds                         100,000            62,422       162,422
   Due to other agencies                                        116,622       116,622
Total noncurrent liabilities                  100,000           179,044       279,044

Total liabilities                             125,694           393,326       519,020

Net assets:
   Restricted                               65,422,562            2,987     65,425,549

Total liabilities and net assets          $ 65,548,256      $   396,313   $ 65,944,569




                                              3
                                   STATE OF OREGON

                        Safe Drinking Water Revolving Loan Fund

                 Statement of Revenues, Expenses, and Changes in Net Assets

                              For the year ended June 30, 2004


                                                           Set Asides
                                            Loans         (Unaudited)            Total
Operating Revenues:
  Interest income on SRF loans          $ 1,158,539                          $ 1,158,539
  Federal receipts                          301,653           13,058,257      13,359,910
   Total operating revenue                1,460,192           13,058,257      14,518,449

Operating Expenses:
   Personal services                          255,241            618,222           873,463
   Services and supplies                       24,245            978,666         1,002,911
   Loan principal forgiven                  1,466,814                            1,466,814
   Expenditures                                                   328,974          328,974
   Financial statement accruals                                     5,942            5,942
 Total operating expenses                   1,746,300           1,931,804        3,678,104

Operating income (loss)                     (286,108)         11,126,453       10,840,345

Nonoperating Revenue (Expenses)
  Interest on investments                     138,601                             138,601
  State match                              10,872,140                          10,872,140
   Total nonoperating revenue              11,010,741                          11,010,741

Funds from EPA-Transfer-in                 11,278,757                           11,278,757
Funds from EPA-Transfer-out                                   (11,580,410)     (11,580,410)
 Total transfers                           11,278,757         (11,580,410)        (301,653)

Change in net assets                       22,003,390           (453,957)      21,549,433

Net assets, beginning of year              43,419,172            456,944       43,876,116

Net assets, end of year                  $ 65,422,562     $         2,987    $ 65,425,549




                                             4
                                     STATE OF OREGON

                           Safe Drinking Water Revolving Loan Fund

                                    Statement of Cash Flows

                                For the year ended June 30, 2004


                                                                     Loans
Cash flows from operating activities:
   Loan principal repayments                                  $      1,513,315
   Loan interest received                                            1,059,086
   Employee services and benefits                                     (252,307)
   Services and supplies                                               (29,485)
   Cash received from EPA-Program Admin                                276,316
   Loan disbursements                                              (16,359,493)

Net cash provided (used) by operating activities                  ($13,792,568)

Cash flows from noncapital financing activities:
   Funds received from EPA                                          11,278,757
   Transfer from other State funds                                  10,872,140
Net cash provided (used) by noncapital financing activities         22,150,897

Cash flows from investing activities:
   Interest on investments                                            138,601
Net cash provided (used) by investing activities                      138,601

Net cash provided (used)                                             8,496,930

Cash and cash equivalents, beginning of year                         4,496,400

Cash and cash equivalents, end of year                         $ 12,993,330




                                                   5
                                   STATE OF OREGON

                         Safe Drinking Water Revolving Loan Fund

                                  Statement of Cash Flows

                              For the year ended June 30, 2004


Reconciliation of operating income (loss) to net
cash provided (used) by operating activities
   Excess of revenue over expenses                          $       (286,108)

Adjustments to reconcile operating income to
net cash used for operating activities
   Allowance for principal forgiveness                              683,402
   (Increase) decrease in Federal Receivable                        (25,337)
   (Increase) decrease in loan interest receivable                  (99,453)
   (Increase) decrease in loans receivable                      (14,062,766)
   Increase (decrease) in liabilities                                 16,279
   Increase (decrease) in vacation payable                          (18,585)
Total adjustments                                               (13,506,460)

Net cash provided (used) for operating activities           $ (13,792,568)




                                                    6
                                   STATE OF OREGON

                         Safe Drinking Water Revolving Loan Fund

                               Notes to Financial Statements


The accompanying financial statements of the Oregon Safe Drinking Water Revolving Loan Fund
have been prepared in conformity with generally accepted accounting principles as prescribed by
the Governmental Accounting Standards Board (GASB), the Financial Accounting Standards
Board (FASB), and the American Institute of Certified Public Accountants (AICPA). In
accordance with GASB Statement No. 20, the Safe Drinking Water Revolving Loan Fund does
not apply FASB pronouncements issued after November 30, 1989.

1. Summary of Significant Accounting Policies

   a. Reporting Entity

   The Safe Drinking Water Revolving Loan Fund (SDWRLF) was created in 1998 as a fund
   within the Oregon Economic and Community Development Department (OECDD), which is
   part of the State of Oregon reporting entity. The SDWRLF operates under the provisions of
   sections 285B.530 through 285B.548 and 285B.560 through 285B.599 of the Oregon Revised
   Statutes (ORS).

   In 1996 Congress created the Safe Drinking Water State Revolving Fund. The fund gives
   each state money to establish loan funds. The funds are to assist in the construction and
   improvement of local public water systems. These financial resources assist communities and
   nonprofit non-community drinking water systems in planning, designing, and building
   drinking water facilities to correct a noncompliance with current or future drinking water
   standards, or to further the public health protection goals of the Federal (US) Safe Drinking
   Water Act and Oregon’s Drinking Water Quality Act. 1.

   For these purposes, the State of Oregon receives an annual grant from the U. S.
   Environmental Protection Agency (USEPA) based on submissions by the State for each
   year’s grant. Most of the grant is used to capitalize the loan financing program, for which a
   20 percent match from the State is required. This match is currently met through State
   Lottery revenue bonds. These bonds will be repaid using State Lottery proceeds.

   b. Basis of Presentation

   The SDWRLF program at the Oregon Economic and Community Development Department is
   accounted for as an Enterprise Fund, a proprietary fund type. Enterprise Funds account for
   operations financed and operated in a manner similar to private business enterprises. Funds
   received by DHS and DEQ are not accounted for as an Enterprise Fund, but are accounted for
   under the State of Oregon Accounting Manual rules in the State Financial Management
   System (accounting system), which is the system of record.




                                                7
                                   STATE OF OREGON

                         Safe Drinking Water Revolving Loan Fund

                               Notes to Financial Statements


1. Summary of Significant Accounting Policies (continued)

   c. Measurement Focus and Basis of Accounting

   All funds are accounted for on a flow of economic resources measurement focus, and are
   maintained on the accrual basis of accounting. Under the accrual basis of accounting,
   revenues are recognized when earned and expenses are recorded at the time related liabilities
   are incurred. Financial activities of OECDD, DHS, and DEQ are included in this report in a
   “consolidated Format.” All assets and liabilities associated with the operation of this fund are
   included on the balance sheet. Fund equity (i.e. net total assets) is reported as Net Assets.
   Proprietary fund operating statements present increases (e.g. revenues) and decreases (e.g.
   expenses) in net assets.

   d. Budgetary Accounting

   The State of Oregon’s budgets are approved on a biennial basis. Safe Drinking Water
   Program expenditures are monitored against approved budgets, quarterly allotments, and cash
   advances. Limitations lapse at the end of the biennium. The Emergency Board of the Oregon
   Legislature approves any increases or decreases to the Legislatively approved budget when
   the Legislature is not in session. The SDWRLF has continuous spending authority in ORS
   285B.563.

   e. Cash, Cash Equivalents, and Investments

   Cash and cash equivalents include: cash on hand, and cash held by the Oregon State Treasury.
   Investments are considered to be cash equivalents when the maturity date is within 90 days of
   the date of the date of acquisition. Investments are reported on the financial statements at fair
   value. Changes in the fair value of investments are recognized as revenue. The custodial
   agent determines the fair value of debt and equity securities, using pricing services, or prices
   quoted by one or more independent brokers.

   f. Receivables

   Receivables are amounts due representing revenues earned or accrued in the current period.
   Interest receivable includes interest due on loans to local governments and special districts.
   Loans receivable are shown net of an allowance for principal forgiveness. An allowance for
   un-collectible accounts is not established because the program has not had any defaults and
   none are anticipated.




                                                 8
                                  STATE OF OREGON

                        Safe Drinking Water Revolving Loan Fund

                              Notes to Financial Statements


2. Loans Receivable

   Loans Receivable:                                              2003             2002
   Through June 30                             2004            (Unaudited)      (Unaudited)

   Number of Loans Outstanding                      46                  39               34

   Total Amount Outstanding               $51,693,209          $38,313,845     $16,949,277

   Loans Receivable project statuses at June 30, 2004 are as follows:

   Loans in Repayment                                                         $ 31,982,124
   Projects in Construction                                                     20,923,899
   Allowance for Principal Forgiveness                                          (1,212,814)
   Total Loans Receivable                                                     $ 51,693,209

   Loans mature at various intervals. The following schedule summarizes future loan

   repayments from loans in repayment.


     Fiscal Year ending June 30            Principal             Interest 

             2005                        $ 1,281,381           $ 961,592

             2006                           1,318,558             925,159

             2007                           1,355,822             887,328

             2008                           1,395,210             848,098

             2009                           1,435,774             807,379

             Thereafter                   25,195,379            6,340,556


              Total Payments              $ 31,982,124        $ 10,770,112

3. Employee Retirement Plan

   The Public Employees Retirement System (PERS) is a statewide defined benefit retirement
   plan for units of state government, school districts, community colleges, and political
   subdivisions of the State. PERS is administered by the Public Employees Retirement Board
   (Board) under the guidelines of Chapter 238 of the Oregon Revised Statutes, and it provides
   retirement and disability benefits, cost-of-living adjustments, and death benefits to plan
   members and beneficiaries.

   PERS is a single pension plan that features both a cost-sharing multiple-employer pension
   plan and an agent multiple-employer pension plan. For units of state government, community
   colleges, and school districts, participation in the PERS cost-sharing multiple-employer plan
   is mandatory.



                                               9
                                   STATE OF OREGON

                         Safe Drinking Water Revolving Loan Fund

                               Notes to Financial Statements


3. Employee Retirement Plan (continued)

   The PERS defined benefit retirement plan is reported in a pension trust fund of the State
   primary government. PERS issues a separate, publicly available financial report that includes
   audited financial statements and required supplementary information. That report may be
   obtained by writing to the Fiscal Services Division, Public Employees Retirement System,
   11410 SW 68th Parkway, Tigard, Oregon 97223.

   The PERS funding policy provides for plan contributions to accumulate sufficient assets to
   pay retirement benefits when due. Plan member contributions are established by State statute.
   The Board determines state employer contributions, based on an actuarially determined rate.
   As of June 30, 2002, employees of state agencies are required to contribute 6 percent of their
   salary to the plan and their State employers are required to contribute 4.71 percent. Current
   law permits employers to pay employee contributions to the retirement fund.

   The employer contributions paid to PERS by the SDWRLF were equal to the required
   contributions for each year. No pension liability existed at June 30, 2004, determined in
   accordance with Statement No. 27 of the Governmental Accounting Standards Board.

4. Unemployment Benefits

   State departments are subject to the Department of Employment Act. State employees who
   qualify are entitled to benefit payments during periods of unemployment. Each State
   Department is required to reimburse the Department of Employment for benefit payments
   made to their former employees. There were no expenses relating to these benefits for the
   year ended June 30, 2004.

5. Commitments

   Projects awarded but not disbursed at June 30, 2004:

   Number of Projects                                                      Amount of Funds
             29                                                               $ 38,272,943

6. Federal Grants Available

   USEPA grants available to fund Safe Drinking Water projects at June 30, 2004, total
   $45,348,264. As of June 30, 2004, OECDD SDWRLF has expended all the state matching
   moneys required to match the 1997 thru 2000 USEPA grants. State matching requirements
   for the USEPA grant years 2001 thru 2003 of $7,954,300 is funded, of which $6,629,727
   remains available for disbursement as of June 30, 2004.




                                               10
                                    STATE OF OREGON

                          Safe Drinking Water Revolving Loan Fund

                                Notes to Financial Statements


6. Federal Grants Available (continued)

   USEPA Grant Awards available at June 30, 2004:

   2000 Grant Available                                    $ 1,333,512

   2001 Grant Available                                      9,247,925

   2002 Grant Available                                     11,588,025

   2003 Grant Available                                     11,179,251

   2004 Grant Available                                    $11,999,551

   Total USEPA Grants Available                            $45,348,264




                                             11
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                         WASHINGTON, D.C.

                                                                                       OFFICE OF
                                                                                  INSPECTOR GENERAL




                           Independent Auditor’s Report

                         on the Internal Control Structure

                  Based on an Audit of the Financial Statements

           Performed in Accordance with Government Auditing Standards



We have audited the financial statements of the Oregon Safe Drinking Water Revolving Loan
Fund Program (the Program) as of and for the year ended June 30, 2004, and have issued our
report thereon dated February 9, 2005.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America and standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States. Those standards require that
we plan and perform the audit to obtain reasonable assurance about whether the financial
statements are free from material misstatement.

Management for the Oregon Safe Drinking Water Revolving Loan Fund is responsible for
establishing and maintaining an internal control structure. In fulfilling its responsibilities,
estimates and judgments by management are required to assess the expected benefits and related
costs of internal control policies and procedures. The objectives of an internal control structure
are to provide management with reasonable, but not absolute, assurance that assets are
safeguarded against loss from unauthorized use or disposition and that transactions are executed
in accordance with management’s authorization and recorded properly to permit the preparation
of financial statements in accordance with Generally Accepted Accounting Principles. Because
of inherent limitations in any internal control structure, errors or irregularities may nevertheless
occur and not be detected. Also, projection of any evaluation of the structure to future periods is
subject to the risk that procedures may become inadequate because of changes in conditions or
that the effectiveness of the design and operation of policies and procedures may deteriorate.

In planning and performing our audit of the financial statements of the Oregon Safe Drinking
Water Revolving Loan Fund for the year ended June 30, 2004, we obtained an understanding of
the internal control structure. With respect to the internal control structure, we obtained an
understanding of the design of relevant policies and procedures and whether they have been
placed in operation, and we assessed control risk in order to determine our auditing procedures
for the purpose of expressing our opinion on the financial statements and not to provide an
opinion on the internal control structure. Accordingly, we do not express such an opinion.

Our consideration of the internal control over financial reporting would not necessarily disclose
all matters in the internal control over financial reporting that might be material weaknesses under

                                                 12
standards established by the American Institute of Certified Public Accountants. A material
weakness is a condition in which the design or operation of one or more of the internal control
components does not reduce to a relatively low level the risk that misstatements in amounts that
would be material in relation to the financial statements being audited may occur and not be
detected within a timely period by employees in the normal course of performing their assigned
functions. We noted matters involving the internal control structure and its operations that we
consider to be a material weakness as defined above. The material weakness is described in the
accompanying schedule of Internal Control Finding and Recommendation.

This report is intended for the information of management of the Oregon Safe Drinking Water
Revolving Loan Fund and the United States Environmental Protection Agency. However, this
report is a matter of public record and distribution is not limited.



Office of Inspector General
Environmental Protection Agency

February 9, 2005




                                                13
                       Internal Control Finding and Recommendation


Lack of Documentation of Set-Aside Funds

The Oregon Safe Drinking Water Revolving Loan Fund Program’s accounting system was unable
to document and support the assets, liabilities, net assets, and revenues and expenditures of the
Set-Aside fund in accordance with Generally Accepted Accounting Principles as required by
Title 40 CFR 35.3550(i). The State of Oregon accounting system does not track revenues and
expenditures on a fiscal year basis for grant type programs. The Program did provide set-aside
information during the audit but was unable to reconcile it to the general ledger. Further, the
information provided during the audit does not agree with the information provided in the
financial statements.

Recommendation: We recommend that EPA require the Oregon Department of Human Services
to develop a trial balance for the set-asides that is reconcilable to the general ledger. This may
require working with the State's Controller to develop a general ledger report for set-asides from
the State’s accounting system.

State Response: Oregon agreed with our recommendation, and stated:

   Your recommendation . . . that the Department of Human Services develop a trial balance for
   the set-asides that is reconcilable to the general ledger has been reviewed and accepted by
   our financial services manager . . . . Enclosed are new financial statements that satisfy the
   recommended action presented in your audit report.




                                                14
                           UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                          WASHINGTON, D.C.

                                                                                    OFFICE OF
                                                                               INSPECTOR GENERAL




                           Independent Auditor’s Report 

               on Compliance with the Requirements Applicable to the 

          Environmental Protection Agency’s State Revolving Fund Program 

                 in Accordance with Government Auditing Standards



We have audited the financial statements of the Oregon Safe Drinking Water Revolving Loan
Fund Program (the Program) as of and for the year ended June 30, 2004, and have issued our
report thereon dated February 9, 2005.

We have also audited the Program’s compliance with requirements governing the following:

C   Allowability for Specific Activities;
C   Allowable Costs/Cost Principles;
C   Cash Management;
C   State Matching;
C   Period of Availability of Funds and Binding Commitments;
C   Program Income;
C   Reporting;
C   Sub-recipient Monitoring; and
C   Special tests and provisions.

The above compliance requirements are applicable to the Oregon Safe Drinking Water Revolving
Loan Fund Program for the year ended June 30, 2004. The management of the Program is
responsible for compliance with those requirements. Our responsibility is to express an opinion
on those requirements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether material
noncompliance with the requirements of the State Revolving Fund program occurred. An audit
includes examining, on a test basis, evidence about the Program’s compliance with those
requirements. We believe that our audit provides a reasonable basis for our opinion.

In our opinion, except for the matters discussed in the findings and recommendation section that
follows, the Program complied, in all material respects, with the specific program requirements
listed above for the year ended June 30, 2004.



                                                15
This report is intended for the information of management of the Oregon Safe Drinking Water
Revolving Loan Fund Program and the United States Environmental Protection Agency.
However, this report is a matter of public record and distribution is not limited.



Office of Inspector General
Environmental Protection Agency

February 9, 2005




                                              16
                           Compliance Findings and Recommendation


Lack of Proper Accounting for Set-Asides

The Oregon Safe Drinking Water Revolving Loan Fund Program has not complied with
accounting requirements for set-aside activities. Title 40 CFR 35.3550(i) requires States to use
accounting, audit, and fiscal procedures conforming to Generally Accepted Accounting Principles
as promulgated by the Governmental Accounting Standards Board. The Program has been unable
to provide a trial balance that lists assets, liabilities, equity, and revenues and expenses on a fiscal
year basis because the State accounting system does not track revenues and expenditures on a
fiscal year basis for grant programs. Further, set-aside information provided in the financial
statements does not agree with information provided during the audit.

Recommendation: We recommend that EPA require the Oregon Department of Human Services
to develop a trial balance for the set-asides that is reconcilable to the general ledger. This may
require working with the State's Controller to develop a general ledger report for set-asides from
the State’s accounting system.

State Response: Oregon agreed with our recommendation, and has developed a system to
properly account for set-aside costs, as discussed under the Internal Control Finding and
Recommendation section.


Technical and Managerial Capacity Determinations

The Program performs technical and managerial capacity determinations prior to execution of
loan agreements in accordance with 40 CFR 35.3520 (d)(2), which states that assistance from the
Fund may not be provided to systems that lack the technical, financial, and managerial capability
to ensure compliance with requirements of the Safe Drinking Water Act, unless owners of the
systems agree to undertake feasible and appropriate changes to ensure compliance over the long
term. However, the determinations frequently identified deficiencies that needed to become loan
conditions but in many cases were not. For example, one Department of Human Services
managerial review determined that the loan recipient needed to develop a written emergency
response plan, and identify the plan in the loan agreement. However, the plan was not identified
because the program had insufficient procedures to ensure all requirements identified by the
review were included in the final loan agreement.

State Response: Oregon agreed with our finding, and provided a list of corrective actions to
make sure these requirements are met. The list included: (1) provide more training for project
staff; (2) increase review by the Infrastructure Manager; (3) develop new eligibility checklists to
identify the specific actions needed resulting from the technical and managerial capacity review;
and (4) investigate creating a special condition in the contract that identifies capacity review
letters and makes the letter an exhibit of the contract. These actions should be sufficient to
correct the problem.



                                                   17
                               Supplemental Information




                                      State of Oregon

                          Drinking Water State Revolving Fund

                        Schedule of Set-Aside Expenses (Unaudited)

                                Year Ended June 30, 2004

                                         Technical      Program         Local
    Cost Category       Administration   Assistance   Management      Assistance   Total

Payroll                  $    131,963    $       0    $   103,246 $ 383,013 $ 618,222
Contracts                     198,526      103,864        182,929   251,758     737,077
Other Operating Costs          28,640            0        178,859    34,089     241,588
                         $    359,129    $ 103,864    $   465,034 $ 668,860 $ 1,596,887




                                             18
                                       Distribution



EPA Region 10

   Regional Administrator

   Director, Water Division

   State Revolving Fund Coordinator

   Audit Followup Coordinator



EPA Headquarters

   Director, Grants Administration
   Agency Followup Coordinator
   State Revolving Fund Audit Manager
   State Revolving Fund Branch, Office of Wastewater Management


State of Oregon

   Office of Public Health Systems, Department of Human Services
   Office of Economic and Community Development Department




                                            19
